TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Initiative to Reduce Compliance Risks
                   Associated With Delinquent Income Tax
                  Returns Filed After a Substitute for Return
                       Assessment Could Be Enhanced



                                          March 21, 2011

                              Reference Number: 2011-30-026




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


THE INITIATIVE TO REDUCE                              data in the information return reporting system
COMPLIANCE RISKS ASSOCIATED                           should help the IRS more effectively detect,
WITH DELINQUENT INCOME TAX                            prioritize, and pursue those individuals who owe
RETURNS FILED AFTER A SUBSTITUTE                      a large amount of taxes from stock sales and
                                                      are not filing tax returns.
FOR RETURN ASSESSMENT COULD BE
ENHANCED                                              The IRS also has an initiative underway to
                                                      improve the screening criteria for selecting
                                                      delinquent returns filed in response to a
Highlights                                            Substitute for Return assessment. The
                                                      multiyear initiative is aimed at reducing the
Final Report issued on March 21, 2011                 compliance risk for delinquent returns that do
                                                      not contain stock transactions. To their credit,
Highlights of Reference Number: 2011-30-026           the team evaluating opportunities to improve
to the Internal Revenue Service Commissioner          delinquent return screening criteria recognized
for the Small Business/Self-Employed Division.        the importance of including a pilot test in their
                                                      effort. While the IRS should be commended for
IMPACT ON TAXPAYERS                                   reviewing and evaluating opportunities to
                                                      improve its delinquent return screening criteria,
The Internal Revenue Service (IRS) identifies
                                                      TIGTA has two recommendations that the IRS
billions of dollars in additional taxes owed from
                                                      may find useful in this initiative as well as in
audits of nonfilers in which it estimates the taxes
                                                      undertaking others in the future.
owed and prepares “substitute” returns after not
receiving responses to contact letters. While         WHAT TIGTA RECOMMENDED
billions of dollars are assessed, the amount
ultimately collected is considerably lower            TIGTA recommended that the Director, Exam
because many assessments are abated after             Policy, Small Business/Self-Employed Division,
taxpayers file delinquent returns claiming much       ensure a framework with detailed steps is
less is owed. Ensuring that these delinquent          established for personnel to follow and
returns receive greater scrutiny might                document in designing and implementing future
discourage taxpayers, who believe that they can       process improvement initiatives. In addition, an
avoid paying taxes and not get caught, from           evaluation plan should be established and
filing delinquent returns to abate assessments.       executed to accurately and reliably assess the
                                                      results of this and future pilots.
WHY TIGTA DID THE AUDIT
                                                      IRS management agreed with both
This audit was initiated to determine whether the     recommendations and will emphasize the use of
IRS effectively addresses the compliance risks        existing systems and processes to ensure
associated with delinquent income tax returns         initiatives are appropriately planned and
received from individuals following a Substitute      evaluated. However, IRS management did not
for Return assessment. The review was part of         specifically commit to evaluating the results from
our planned Fiscal Year 2011 audit coverage           the multiyear initiative discussed in this report.
and addresses the major management                    Such an evaluation can provide important
challenge of Tax Compliance Initiatives.              information for understanding performance and
                                                      identifying improvement options. The
WHAT TIGTA FOUND                                      information would also benefit IRS management
New basis information reporting on stock sales        in efforts to deal with the challenge of reducing
and a multiyear initiative to enhance tax return      the compliance risk posed by delinquent returns.
screening techniques should help the IRS to
more effectively address the compliance risk on
delinquent returns filed in response to a
Substitute for Return assessment. Specifically,
recent legislation to include stock cost basis
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 21, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Initiative to Reduce Compliance Risks
                             Associated With Delinquent Income Tax Returns Filed After a
                             Substitute for Return Assessment Could Be Enhanced
                             (Audit # 200930040)

 This report presents the results of our review to determine whether the Internal Revenue Service
 effectively addresses the compliance risks associated with delinquent income tax returns
 received from individuals following a Substitute for Return assessment. The review was part of
 our planned Fiscal Year 2011 audit coverage and addresses the major management challenge of
 Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                               The Initiative to Reduce Compliance Risks Associated
                                 With Delinquent Income Tax Returns Filed After a
                               Substitute for Return Assessment Could Be Enhanced




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Expanded Information Reporting on Stock Sales Has
          Benefits for Both Taxpayers and the Internal Revenue
          Service........................................................................................................... Page 3
          The Approach Taken to Identify Ways of Reducing the
          Risk Posed by Delinquent Returns Could Be Strengthened ......................... Page 7
                     Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Summary Assessment of the Initiative ................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
        The Initiative to Reduce Compliance Risks Associated
          With Delinquent Income Tax Returns Filed After a
        Substitute for Return Assessment Could Be Enhanced




                    Abbreviations

AUR          Automated Underreporter
FMV          Fair Market Value
FY           Fiscal Year
GAO          Government Accountability Office
IRS          Internal Revenue Service
SB/SE        Small Business/Self-Employed
SFR          Substitute for Return
                          The Initiative to Reduce Compliance Risks Associated
                            With Delinquent Income Tax Returns Filed After a
                          Substitute for Return Assessment Could Be Enhanced




                                             Background

Shortly after the end of each calendar year, billions of
information returns are prepared and used to report a             The role and benefits of
                                                                  third-party information
variety of transactions and payments to the Internal          reporting, such as Forms 1098,
Revenue Service (IRS). For example, Federal law              are central to the success of our
requires financial institutions to provide the IRS with        Nation’s tax system because
Mortgage Interest Statements (Form 1098) detailing the       information  returns help assure
amount of interest received from the mortgages they             taxpayers  accurately report
                                                             certain deductions and income.
hold. Besides identifying the amount of mortgage
interest received, the law requires financial institutions
to identify the names and taxpayer identification numbers of the individual borrowers on the
Form 1098 and provide a copy of the document to the borrower responsible for paying the
interest.
The role and benefits of third-party information reporting, such as Forms 1098, are critical to the
success of our nation’s tax system because information returns help assure taxpayers accurately
report certain deductions and income. Because information reporting is generally required to
take place shortly after the end of the calendar year, it provides a reliable information source
taxpayers can use in preparing their annual tax returns. This reporting reduces the likelihood that
taxpayers may inadvertently neglect to include items such as the mortgage interest paid on a
vacation home or the interest income from a small savings account.
Besides assisting taxpayers with preparing their annual tax returns, information reporting is a key
component in IRS compliance programs that are designed to detect and pursue noncompliant
taxpayers who underreport income, overstate deductions, or fail to file tax returns. In the IRS’s
Automated Underreporter (AUR)1 Program, computers match the items reflected on the
information returns submitted by third parties to the related items on the filed tax returns of those
who received the documents. If the match shows a discrepancy between income reported or
deductions claimed, a potential underreporter case may be developed so the IRS can determine
whether a taxpayer contact is warranted to resolve these potential issues. For Fiscal Year
(FY) 2009, the IRS reported closing approximately 3.6 million underreporter cases and, in the
process, assessed approximately $6.3 billion of additional taxes.
For a match that shows no corresponding tax return, a potential nonfiler case could be initiated
based on the information returns. Once initiated, the IRS attempts to secure the delinquent return

1
 The AUR Program matches taxpayer income and deductions submitted on information returns (e.g., Proceeds
From Broker and Barter Exchange Transactions (Form 1099-B) or Wage and Tax Statements (Form W-2)) by third
parties such as banks, brokerage firms, and other payers against amounts reported on individual income tax returns.
                                                                                                            Page 1
                         The Initiative to Reduce Compliance Risks Associated
                           With Delinquent Income Tax Returns Filed After a
                         Substitute for Return Assessment Could Be Enhanced



through a series of contact letters that request the nonfiler to either file a return or explain the
reason for not filing. If the nonfiler does not respond to the letters or file a return if required, the
IRS will typically prepare a “Substitute for Return” (SFR) for the tax return that the taxpayer
should have filed voluntarily. When preparing an SFR, the IRS typically estimates the taxes
owed using the income reflected on the information returns it has on the nonfiler, assesses the
tax, and begins efforts to collect the tax. For FYs 2005 through 2009, the IRS assessed
approximately $60 billion from SFRs.
While the preparation of an SFR can generate a large assessment, the amount ultimately
collected is usually considerably lower because many assessments are reduced (abated) after
taxpayers file delinquent returns claiming far less is owed. We previously reported2 working
with IRS data to estimate a collection rate and found a 14 percent collection rate based on a
statistically valid sample of SFR assessments involving high-income individuals.
Besides SFR assessments, the tax law allows the IRS to abate part or all of the tax, interest, and
penalty assessments in certain other situations. For example, the IRS may abate tax assessments
caused by a tax return preparation error, such as when a taxpayer overlooked a deduction on the
original return and then subsequently included the additional deduction on an amended return.
The IRS may also abate a penalty when a taxpayer provides reasonable cause, such as a hardship
resulting from an unexpected event, for not meeting certain filing or payment obligations.
Regardless of the reason for the abatement of a tax, interest, and/or penalty assessment, the IRS’s
computers generally abate any other associated penalty and interest assessments automatically.
This review was performed in the IRS Small Business/Self-Employed (SB/SE) Division
Headquarters Office in New Carrollton, Maryland, and the Campus Compliance Services
function at the Brookhaven Campus3 during the period November 2009 through September 2010.
Except for not auditing IRS databases to validate the accuracy and reliability of the information,
this performance audit was conducted in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




2
  While Examinations of High-Income Taxpayers Have Increased, the Impact on Compliance May Be Limited
(Reference Number 2006-30-105, dated July 25, 2006).
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                            The Initiative to Reduce Compliance Risks Associated
                              With Delinquent Income Tax Returns Filed After a
                            Substitute for Return Assessment Could Be Enhanced




                                        Results of Review

The IRS has a multiyear initiative (the Initiative) underway to improve the screening criteria for
selecting delinquent returns filed in response to an SFR assessment. To their credit, the team
evaluating opportunities to improve delinquent return screening criteria recognized the
importance of including a pilot test in their effort. An important next step for the team is to
develop a plan for accurately and reliably evaluating the results of the pilot. This will help
ensure that the sources and data necessary to determine whether desired results are being
obtained are collected and if further improvements may be needed.

Expanded Information Reporting on Stock Sales Has Benefits for
Both Taxpayers and the Internal Revenue Service
New basis information reporting on stock sales and the Initiative to enhance tax return screening
techniques should help the IRS to more effectively address the compliance risk on delinquent
returns filed in response to an SFR assessment. Once the stock basis data are included in the
information return reporting system, the IRS should be able to more effectively detect, prioritize,
and pursue those individuals who owe a large amount of taxes from stock sales and are not filing
tax returns.
Under a provision in the Emergency Economic Stabilization Act of 2008,4 brokers and mutual
fund companies will be required to report the basis of most stock purchases in Calendar
Year 2011 and all stock purchases in Calendar Year 2012 and later to investors (taxpayers) and
the IRS. As stated in the following excerpt of an IRS press release, the IRS Commissioner
expects that having stock basis data in the third-party information reporting system will benefit
both taxpayers and the IRS.
           This important reporting change will improve tax compliance while reducing the
           recordkeeping and paperwork burden for millions of investors. These taxpayers
           will now receive the information they need to more easily report their gains and
           losses correctly.

Basis reporting will assist taxpayers in avoiding misreported gains and losses
from stock sales when preparing their annual income tax return
Stated simply, a taxpayer’s basis in stock is the amount paid to purchase it plus brokerage
commissions and fees, if any. When the stock is subsequently sold, the basis is subtracted from
the gross sale proceeds to determine the gain or loss reported for income tax purposes. However,

4
    Pub. L. No. 110-343, 122 Stat. 3765, 3854 (2008).
                                                                                              Page 3
                           The Initiative to Reduce Compliance Risks Associated
                             With Delinquent Income Tax Returns Filed After a
                           Substitute for Return Assessment Could Be Enhanced



specific events, such as corporate mergers, stock splits, and nontaxable dividends can make basis
calculations complex for taxpayers, especially when the stock has been acquired over a long time
period.
Calculations may also be complicated if stock was inherited or acquired by gift. For example,
stock acquired as a gift assumes a dual basis that is not determined until the stock is sold. The
tax rule limits the amount of loss that one individual (donor) can pass on to another individual
(recipient). Specifically, to determine the loss of a stock sale, the tax rule requires the use of the
lower of the donor’s basis and the fair market value (FMV)5 of the stock when received
(i.e., when inherited or acquired as a gift). For determining the gain from a stock sale, the tax
rule requires the use of the donor’s basis.
Figure 1 shows the basis a gift recipient would need to calculate and use in four different
scenarios to accurately determine the resulting gain or loss when selling stock acquired by a gift.
The figure also shows two instances in which the stock sale would generate neither a gain nor
loss for the recipient. This occurs in situations where the donor’s basis generates a loss and a
gain is produced using the FMV as the basis.
                       Figure 1: Examples for Determining a Gain or Loss
                             When Selling Stock Acquired as a Gift

                                                      FMV on Date
             Example              Donor’s Basis       Gift Acquired         Basis to Use       Gain or (Loss)
     1. Stock sold for $12,000       $10,000              $8,000              Donor’s              $2,000
     2. Stock sold for $7,000        $10,000              $8,000                  FMV             ($1,000)
     3. Stock sold for $9,000        $10,000              $8,000                  N/A                -0-
     4. Stock sold for $8,500        $10,000              $8,000                  N/A                -0-
    Source: IRS Publication 17, Your Federal Income Tax for Individuals (2009).

Basis reporting will help the IRS to more effectively identify and address
misstated gains and losses from stock sales reported on tax returns
One of the primary goals of the IRS is to ensure that everyone meets their obligation to pay
taxes. To meet this goal, the IRS strives to allocate its enforcement resources and contacts to
identify and address noncompliant taxpayers while avoiding contacts with compliant ones.
However, the lack of information on stock basis has long hampered the ability of the IRS to
identify and estimate taxes due from taxpayers who received proceeds from stock sales and
misreported the sales on their tax returns. This lack of information, in turn, has resulted in the


5
 The FMV is the amount that a seller can receive for the item in the normal marketplace from an unrelated third
party.
                                                                                                             Page 4
                          The Initiative to Reduce Compliance Risks Associated
                            With Delinquent Income Tax Returns Filed After a
                          Substitute for Return Assessment Could Be Enhanced



IRS and taxpayers dealing with potentially misreported stock sales that produce no tax change6
during an audit.
IRS statistics show that in FYs 2005 through 2009, the IRS closed approximately 16.6 million
discrepancy cases in its AUR Program and, in the process, assessed approximately $25.8 billion
in additional taxes that were due after returns were filed. These statistics indicate that for each
case closure, the AUR Program generated, on average, about $1,556 in additional taxes.
Despite the seemingly high return from the AUR Program, Tax Year 20077 IRS data show it did
not assess additional taxes (no tax change) in 20 percent of the 800,000 cases initiated to address
potentially misreported stock sales captured on tax returns. In comparison, the no-change
percentage for other types of AUR Program case closures for Tax Year 2007 was 12.7 percent.

Stock basis reporting should help the IRS reduce a common source of tax
assessments it makes and subsequently abates
Besides dealing with potentially misreported stock sales on tax returns, the IRS and taxpayers
spend time, money, and resources on abating erroneous SFR assessments due to the absence of
basis reporting. As shown in Figure 2, according to the IRS, during FYs 2005 through 2009 the
IRS abated billions of dollars of tax, penalty, and interest assessments from SFRs after
delinquent income tax returns were filed by individuals showing far less, or nothing, was owed.
It is costly to the IRS to record, begin collection action, and abate tax assessments.




6
  No tax change indicates that the tax return was examined but there was not a change in the tax liability or any
adjustments.
7
  Tax Year 2007 was the most recent data available from the IRS.
                                                                                                              Page 5
                             The Initiative to Reduce Compliance Risks Associated
                               With Delinquent Income Tax Returns Filed After a
                             Substitute for Return Assessment Could Be Enhanced



                        Figure 2: FYs 2005–2009 Examination Function SFR
                      Assessments and Abatements for Individual Tax Returns
           Fiscal Year            2005              2006              2007             2008             2009
    Number of Cases Closed       136,365          151,733           190,100           176,393          219,600


    Tax Assessments           $5,231,784,418    $6,406,977,239    $7,748,885,093   $5,129,094,381   $6,138,740,713
    Penalty Assessments       $2,120,926,623    $2,393,206,860    $2,782,279,382   $1,755,911,430   $2,222,435,860
    Interest Assessments      $1,190,989,852    $1,531,887,789    $1,789,292,097   $1,254,021,578   $1,422,496,367
    Decrease Tax Amount          $1,932,053         $1,969,522        $3,556,141      $3,396,139       $4,714,611
    Total Assessments         $8,545,632,946   $10,334,041,410   $12,324,012,713   $8,142,423,528   $9,788,387,551


    Tax Abatement             $2,275,267,649    $2,367,892,076    $2,822,275,967   $1,330,793,681    $257,309,166
    Penalty Abatement         $1,108,631,817    $1,029,553,915    $1,194,104,686    $564,090,855     $108,523,017
    Interest Abatement         $533,150,866      $589,233,391      $728,306,377     $384,407,612      $63,627,248
    Total Abatements          $3,917,050,332    $3,986,679,382    $4,744,687,030   $2,279,292,148    $429,459,431


    Net Tax Assessed          $2,956,516,769    $4,039,085,163    $4,926,609,126   $3,798,300,700   $5,881,431,547
    Net Penalty Assessed      $1,012,294,806    $1,363,652,945    $1,588,174,696   $1,191,820,575   $2,113,912,843
    Net Interest Assessed      $657,838,986      $942,654,398     $1,060,985,720    $869,613,966    $1,358,869,119
    Net Assessments           $4,626,650,561    $6,345,392,506    $7,575,769,542   $5,859,735,241   $9,354,213,509
Source: Unaudited IRS data from the IRS SB/SE Division Examination function.

Besides IRS costs, the abatement process can be time consuming and expensive for the taxpayers
involved. For example, taxpayers need to prepare and submit one or more tax returns, which
may require the expense of hiring a paid tax return preparer. Taxpayers may also need to have
multiple contacts with the IRS and supply information to support one or more items on the tax
return.
According to IRS officials, the lack of information on basis reporting for stock sales is a
common reason for abating SFR assessments that occur when an individual is involved in
numerous stock sales and does not file a tax return. Because the IRS does not have basis
information for the stock sold, it has no option other than assessing taxes based on the
information returns that report the gross proceeds from the stock sales so collection actions can
begin. Because SFR assessments based on the gross proceeds from numerous stock sales can be
significantly overstated, many individuals choose to file a tax return that provides basis
information to reduce their tax liability after receiving these assessments.
In addition to new legislation, the Initiative should help improve the screening criteria for
selecting delinquent returns filed in response to an SFR assessment. The Initiative was
implemented in response to findings we reported in an earlier report8 and is aimed at reducing the

8
 Opportunities Exist to Improve the Correspondence Examination Process for High-Income Nonfilers (Reference
Number 2008-30-156, dated September 16, 2008).
                                                                                                                 Page 6
                        The Initiative to Reduce Compliance Risks Associated
                          With Delinquent Income Tax Returns Filed After a
                        Substitute for Return Assessment Could Be Enhanced



compliance risk for delinquent returns that do not contain stock transactions. While the IRS
should be commended for reviewing and evaluating opportunities to improve its delinquent
return screening criteria, we have two observations that the IRS may find useful for
strengthening the approach it is taking in the Initiative.

The Approach Taken to Identify Ways of Reducing the Risk Posed by
Delinquent Returns Could Be Strengthened
One of the best practices for developing and implementing new business processes, or for
improving existing ones, is to establish an overall approach that contains detailed steps for
carrying out the various phases of an initiative. For example, the Government Accountability
Office (GAO) developed and used a 20-step approach to evaluate earlier improvement initiatives
in the IRS SB/SE Division. The approach is based on its Business Process Reengineering
Assessment Guide9 and discussions with managers in private industry as well as in other Federal
agencies. According to the GAO, the 20 steps included in its approach help ensure potential
obstacles are considered in planning, problems are pinpointed and addressed through pilot
testing, and results are evaluated accurately.
We used GAO’s 20-step approach as criteria to assess how closely the team considered each of
the recommended steps in planning and implementing the Initiative. We used the GAO
framework because the SB/SE Division could not provide documentation during our review that
it had a standardized framework in place for the Initiative. In making our assessment, it is
important to recognize that because a standardized framework was not in place, we used IRS
statistics, the Internal Revenue Manual, strategic planning documents, and discussions with IRS
officials to make our judgment about whether each of the 20 steps were addressed during the
Initiative.
We believe it is equally important to recognize that, according to the GAO, a degree of discretion
is involved in making judgments about each of the steps, and some steps will not be appropriate
for every project. As shown in Figure 3, the team has yet to fully address several key issues
needed to help make a more informed decision about how best to enhance the screening process
for delinquent returns and minimize the compliance risk they pose. Appendix IV provides
additional details for each of the items in the GAO approach.




9
 Tax Administration: Planning for IRS’s Enforcement Process Changes Included Many Key Steps but Can Be
Improved (GAO-04-287, dated January 2004).
                                                                                                    Page 7
                             The Initiative to Reduce Compliance Risks Associated
                               With Delinquent Income Tax Returns Filed After a
                             Substitute for Return Assessment Could Be Enhanced



   Figure 3: Assessment of SB/SE Division’s Initiative Using Key Best Practices

                                                                Included
             Best Practices Advocated by the GAO              in Initiative                 Comments

 Identify productivity baseline.                                   {          No baseline data established to help
                                                                              measure improvement gains.

 Include complexity and quality in productivity measures.

 Compare productivity to internal and external benchmarks.

 Map process.                                                      z

 Identify causes of poor performance.                              z

                                                                              The gap between what the current
 Measure gap between current and desired productivity.             {          process delivered and what the new
                                                                              process will be expected to deliver has
                                                                              yet to be quantified.

 Used best practices.

 Analyze alternatives.

 Design new process to close productivity gap.

 Obtain executive support.                                         z

 Assess barriers to implementing changed process.                  z

 Assess resource needs and availability.                           z

 Conduct pilot tests.                                              z

 Adjust process based on pilot.

 Define roles and responsibilities.                                z

 Establish employee expectations.                                 N/A         Expectations not anticipated to
                                                                              change.
                                                                              Plans not established to determine
 Monitor and evaluate new process.                                 {
                                                                              how well the process is performing.

 Establish a change management strategy.

 Establish a transition team.

 Develop workforce training plans.

                                                 z Yes { No      Partial
Source: Our analysis of the SB/SE Division Initiative.

To their credit, the team recognized the importance of including a pilot test in the Initiative. This
step is critical to complete before full-scale implementation of a new process because, according
to the GAO, pilot testing is designed to evaluate the soundness of the proposed process, pinpoint
                                                                                                                Page 8
                      The Initiative to Reduce Compliance Risks Associated
                        With Delinquent Income Tax Returns Filed After a
                      Substitute for Return Assessment Could Be Enhanced



and correct problems, and help secure support from key stakeholders. Since starting the pilot in
January 2009, the team has:
   •   Defined a broad goal for the Initiative, which is to reduce the noncompliance that
       contributes to the Federal tax gap by enhancing the screening criteria used to select
       delinquent returns for audit.
   •   Used the experience and judgment of examiners to screen delinquent returns that were
       submitted in response to an SFR assessment for areas of noncompliance.
   •   Selected 1,285 delinquent returns, which had areas of noncompliance unrelated to stock
       transactions, for audit during the screening process.
   •   Identified specific tax issues on each of the delinquent returns selected for examiners to
       audit.
   •   Introduced the delinquent returns into the audit stream with special tracking codes so
       closed cases can be retrieved and analyzed to help make decisions about the level of
       compliance risk posed by the delinquent returns audited.
Important next steps for the team include establishing measurable objectives for assessing the
results from the pilot and developing a plan for accurately and reliably evaluating the results.
According to the GAO, making plans early for measuring and evaluating outcomes from a pilot
helps ensure that the data necessary for the assessment are collected and that accomplishments
can be objectively measured to determine whether desired results are being obtained and whether
further improvements may be needed. Such determinations can also enhance the credibility of
the results while helping avoid any perception bias in the outcomes.

IRS productivity indicators and closed audit case files may provide data sources
for assessing results and determining if any improvements may be needed
Given the team’s stated goal, measurable objectives might include what amount of additional
assessments would indicate progress is being made to reduce the noncompliance detected on
delinquent returns. The SB/SE Division obtained data for the pilot which show that, as of
September 30, 2010, examiners had closed 897 (70 percent) of the 1,285 delinquent return audits
and recommended about $20.2 million in additional taxes that is potentially owed by the
taxpayers who filed the delinquent returns.
As summarized in Figure 4, our review of a judgmental sample of 85 of the closed audits showed
that the IRS is in the position to potentially reassess about 30 percent of the $3.2 million in SFR
assessments that had been abated. Moreover, the results further illustrate the need to ensure
delinquent returns are closely screened for areas of noncompliance and selected for audit when
warranted. Further, the audit results should send a strong signal to taxpayers who may believe
they can avoid paying taxes and not get caught by filing delinquent returns to abate SFR
assessments.
                                                                                               Page 9
                           The Initiative to Reduce Compliance Risks Associated
                             With Delinquent Income Tax Returns Filed After a
                           Substitute for Return Assessment Could Be Enhanced



            Figure 4: Results of 85 Closed Audits of Delinquent Tax Returns
                                                                                                                   Percentage of
                 Number                                  Delinquent Return                 Delinquent Return        No-Change
 Tax Periods     of SFRs      SFR Assessments               Abatements                     Audit Assessments          Audits
 2000‐2002          17        $          624,925        $            (538,700)              $         203,426          59% 
 2003‐2004          38        $       2,506,391         $         (2,111,555)               $         590,710          18% 
 2005‐2006          22        $             64,127      $                           ‐       $           91,537         59% 
 2007‐2008          8         $             12,250      $                           ‐       $           63,677         63% 
 Totals             85        $       3,207,693         $         (2,650,255)               $         949,350          41% 
Source: Our analysis of audit results from the Initiative.

Besides summarizing audit results, we reviewed 85 of the 897 closed audit case files and found
that examiners adhered to the audit scopes established by classifiers by addressing each of the
issues the classifiers identified for audit. The audits involved sole proprietor business expenses
and rental real estate expenses that classifiers identified for audit because they appeared large,
unusual, or questionable.
Although we did not perform an indepth quality review of all aspects of the audits, we did
conduct a preliminary Financial Statement Analysis (commonly referred to as a preliminary
Cash-T analysis) for each of the 85 audits. The Cash-T analysis is based on the assumption that
taxpayers need to pay a certain amount of money to cover their expenses, including basic living
expenses and, absent other information, should be reporting an income that is large enough to
cover the expenses.
Our Cash-T analyses showed that 42 (49 percent) of 85 audits were closed with the taxpayers’
expenditures exceeding their income by more than $10,000. In 12 of these 42 audits, the
expenses exceeded the income on the return by more than $50,000. The gaps noted between
expenditures and income raise questions about whether the individuals may owe taxes in
addition to those identified in the audits because the expenses on the return may still be
overstated and/or there may be additional sources of income that should have been reported.
While the gaps identified between expenditures and income in these audits suggest there may be
deficiencies in how examiners audited the delinquent returns, the work necessary to make this
conclusion was outside the scope of our audit.
Our results indicate it may be worthwhile for the team to explore the benefits as well as the costs
of incorporating a preliminary Cash-T analysis in the screening process for selecting delinquent
returns for audit. Like identifying other large, unusual, or questionable items for examiners to
audit, this effort would better ensure significant differences between expenditures and reported
income are indentified for examiners early in the process so they can be addressed during the
audit. Currently, IRS procedures generally require examiners to conduct preliminary Cash-T
analysis during audits. However, this procedure is not always properly followed, as evidenced
by our case reviews.

                                                                                                                           Page 10
                     The Initiative to Reduce Compliance Risks Associated
                       With Delinquent Income Tax Returns Filed After a
                     Substitute for Return Assessment Could Be Enhanced



Recommendations
The Director, Exam Policy, SB/SE Division, should:
Recommendation 1: Ensure a framework with detailed steps is established for personnel to
follow and document in designing and implementing future process improvement initiatives.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Policy, SB/SE Division, will issue a memorandum to promote
       employee awareness of existing frameworks and system requirements for designing and
       implementing future process improvement initiatives.
Recommendation 2: Ensure an evaluation plan is established and executed to accurately and
reliably assess the results of this and future pilots. These plans and the related assessments
should include performance measures. Such measures are needed to objectively define what will
constitute a success and determine whether desired results are being obtained and if further
improvements may be needed. The results of this and future pilots should also be thoroughly
documented to ensure that IRS personnel can incorporate the results into future efforts to
enhance the screening criteria for selecting delinquent returns to audit.
       Management’s Response: IRS management agreed with this recommendation.
       Results, going forward, will be documented using an existing evaluation plan and
       established measures to ensure that IRS personnel can incorporate the results into future
       projects. The Director, Examination Policy, SB/SE Division, will issue a memorandum
       to emphasize the importance of using existing evaluation plans and measures to
       document results.
       Office of Audit Comment: Although IRS management agreed with both
       recommendations and will emphasize the use of existing systems and processes to ensure
       initiatives are appropriately planned and evaluated, they did not specifically commit to
       evaluating the results from the Initiative discussed in this report. Such an evaluation can
       provide important information for understanding performance and identifying
       improvement options. The information would also benefit IRS management in efforts to
       deal with the challenge of reducing the compliance risk posed by delinquent returns.




                                                                                          Page 11
                         The Initiative to Reduce Compliance Risks Associated
                           With Delinquent Income Tax Returns Filed After a
                         Substitute for Return Assessment Could Be Enhanced



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS effectively addresses the compliance
risks associated with delinquent income tax returns received from individuals following an SFR
assessment. To accomplish our objective, we:
I.      Determined if delinquent income tax returns received from high-income taxpayers are
        screened for noncompliance in accordance with IRS policies and procedures.
        A. Reviewed the Internal Revenue Code, Internal Revenue Manual, Department of the
           Treasury Regulations, training materials, and publications; interviewed personnel at
           the IRS Campus1 Compliance Services, Brookhaven Campus; and conducted a
           walkthrough of the High Income Non-Filer Unit.
        B. Reviewed recent tax legislation2 requiring brokers and mutual fund companies to
           report the basis of most stock purchases and the effect it will have in addressing some
           high income delinquent tax returns.
        C. Evaluated the methodology of the Initiative underway to improve the screening
           criteria for selecting for review delinquent returns filed in response to an SFR
           assessment.
             1. Assessed the Initiative using GAO’s 20-step approach based on its Business
                Process Reengineering Assessment Guide3 to determine if a framework was in
                place to accurately and reliably evaluate the results
             2. Reviewed documentation for the Tax Compliance Officer Correspondence Exam
                Pilot which was to address concerns with the Automated SFR Program.
                 a. Obtained a judgmental sample of 85 from the 897 pilot case files closed as of
                    September 30, 2010. A judgmental sample was selected because we did not
                    plan to project our findings.
                 b. Summarized audit results and determined whether the current screening
                    matrix would have identified noncompliant delinquent tax returns for
                    examination.

1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  Pub. L. No. 110-343, 122 Stat. 3765, 3854 (2008).
3
  Tax Administration: Planning for IRS’s Enforcement Process Changes Included Many Key Steps but Can Be
Improved (GAO-04-287, dated January 2004).
                                                                                                         Page 12
                      The Initiative to Reduce Compliance Risks Associated
                        With Delinquent Income Tax Returns Filed After a
                      Substitute for Return Assessment Could Be Enhanced



               c. Prepared a Cash-T analysis for each of the 85 cases to determine if examiners
                  adequately probed for unreported income and overstated expenses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
identifying and selecting tax returns for examination when a taxpayer submits a “new” return or
request for audit reconsideration after an SFR has been prepared by the IRS. We evaluated these
controls by reviewing source materials, interviewing management, and reviewing a sample of
examined closed cases from the pilot program.




                                                                                           Page 13
                    The Initiative to Reduce Compliance Risks Associated
                      With Delinquent Income Tax Returns Filed After a
                    Substitute for Return Assessment Could Be Enhanced



                                                                            Appendix II

                Major Contributors to This Report

Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Audit Manager
Lisa Stoy, Audit Manager
Carole Connolly, Lead Auditor
Cynthia Dozier, Senior Auditor
Joan Floyd, Senior Auditor
William Tran, Senior Auditor




                                                                                   Page 14
                    The Initiative to Reduce Compliance Risks Associated
                      With Delinquent Income Tax Returns Filed After a
                    Substitute for Return Assessment Could Be Enhanced



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 15
                         The Initiative to Reduce Compliance Risks Associated
                           With Delinquent Income Tax Returns Filed After a
                         Substitute for Return Assessment Could Be Enhanced



                                                                                            Appendix IV

                Summary Assessment of the Initiative

This appendix compares and contrasts the approach used by the IRS in its Initiative and the
criteria the GAO recommends using when considering, planning, and implementing new
business processes or improving existing business processes. The GAO developed its approach
based on its Business Process Reengineering Assessment Guide1 and discussions with top-level
managers in private industry as well as in other Federal agencies.
                     Figure 1: Considering a Potential Process Change

     Description of GAO’s Recommended Steps                            Approach Used by the IRS
Map current process. Similar to flowcharting, the purpose      The process targeted for improvement is
is to help present a clear picture of the current processes,   outlined and described in the Internal Revenue
help identify the root causes for underperformance, and        Manual and was used to determine that the
achieve the desired level of improvement.                      current criteria for selecting delinquent tax
                                                               returns for audit may need improvement.

Identify productivity baselines. Baseline data are needed to   Productivity baselines were not established.
provide measures from the current processes to use in
comparing the level of improvement achieved by the new
process.

Identify causes of poor performance. This step involves        Identified resource constraints, training
identifying the factors or combination of factors that are     weaknesses, conflicting workload priorities,
causing the poor performance in the current process.           and outdated audit selection methods as
Examples could include a lack of resources and regulatory      potential causes for the need to improve
requirements.                                                  performance.

Include complexity and quality in productivity measures.       A partial quality assessment is planned that will
Productivity measures the efficiency with which a process      measure compliance with audit procedures and
uses resources to produce a product or service, such as the    guidelines. However, the degree of difficulty
number of audits an IRS examiner completes in a month.         associated with the audits has not been
To be accurate, a combination of measures is generally         considered.
needed, and consideration needs to be given to the level of
difficulty involved.




1
 Tax Administration: Planning for IRS’s Enforcement Process Changes Included Many Key Steps but Can Be
Improved (GAO-04-287, dated January 2004).
                                                                                                      Page 16
                          The Initiative to Reduce Compliance Risks Associated
                            With Delinquent Income Tax Returns Filed After a
                          Substitute for Return Assessment Could Be Enhanced




      Description of GAO’s Recommended Steps                              Approach Used by the IRS
 Measure gap between current and desired productivity.           Identified the need to expand audit coverage
 Ideally, the level of performance improvement desired           over delinquent returns but did not quantify
 should be achievable and based on empirical data that define    productivity outcome goals.
 where a particular performance level is and the level of
 improvement sought.

 Compare current productivity to internal and external           Collectively reviewed audit coverage and
 benchmarks. Benchmarks are measures from which                  results within the IRS campus2 environment but
 performance improvement can be quantified. They provide         did not analyze potential differences in audit
 reference points that can be used to help identify and close    productivity outside the campuses.
 performance gaps between processes used in other
 organizations and/or in different functions within the same
 organization.
Source: The GAO’s 20-step approach and our analysis of SB/SE Division’s Initiative.




 2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
 forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 17
                          The Initiative to Reduce Compliance Risks Associated
                            With Delinquent Income Tax Returns Filed After a
                          Substitute for Return Assessment Could Be Enhanced



                               Figure 2: Planning a Process Change

    Description of GAO’s Recommended Steps                               Approach Used by the IRS
 Used best practices. Identifying and using best practices      Reviewed practices for selecting and auditing
 is a form of benchmarking that involves adapting practices     returns in the IRS campus environment but did not
 of others to reach new improvement levels. It is especially    identify potential best practices outside the campus
 recommended that government agencies use business              or outside of the IRS.
 organizations in private industry for this purpose.

 Design new process to close productivity gap.                  At the time of our review, no quantitative data
 Quantitative data are needed to support changing to a new      analysis had been conducted nor had plans been
 process that shows the change will narrow the gap              developed to show how the new process
 between current performance and the desired level of           improvement might resolve performance
 performance. To add credibility and avoid any perception       weaknesses.
 of bias in making the change, the desired level of
 performance sought should be specified.

 Analyze Alternatives. Alternative process changes that         Reviewed the possibility of having tax compliance
 may produce the same level of improvement should be            officers conduct additional audits of delinquent
 explored in terms of their relative costs and benefits. Such   returns submitted in response to an SFR
 exploration can be done through limited testing and may        assessment.
 identify a more cost-effective approach to achieving the
 same or similar results.

 Obtain executive support. Executive support and                The Director, Campus Reporting Compliance, and
 oversight throughout a process change is important for a       the Director, Field Exam Planning, SB/SE
 number of reasons that include ensuring resources are          Division, were involved with approving and
 available, securing support from internal and external         implementing pilot testing.
 stakeholders, and approving proposed recommendations
 for implementation.

 Assess barriers to implementing changes. Identifying and       Identified and assessed how to overcome the
 assessing the costs of overcoming potential barriers to        barriers associated with resource constraints,
 implementing a change is important because it may              training issues, conflicting workload priorities, and
 ultimately prove to be too great a burden.                     outdated audit selection methods.

 Assess resource needs and availability. Before initiating      Considered using a combination of examiners in
 a process improvement project, it is important to ensure       both the IRS campus and office environments to
 the resources are available to design and plan and             handle the additional workload as well as the
 implement the change. Otherwise, there is a risk the new       additional training that may be needed for some or
 change will be only partially implemented.                     all of the examiners and their immediate
                                                                supervisors.
Source: The GAO’s 20-step approach and our analysis of SB/SE Division’s Initiative.




                                                                                                              Page 18
                         The Initiative to Reduce Compliance Risks Associated
                           With Delinquent Income Tax Returns Filed After a
                         Substitute for Return Assessment Could Be Enhanced



                           Figure 3: Implementing a Process Change

     Description of GAO’s Recommended Steps                          Approach Used by the IRS
Conduct pilot tests. Pilot testing is designed to show            A pilot test spanning multiple years was
intended benefits from a change can, in fact, be realized. It     ongoing at the time of our review. It
involves evaluating how well the process change works in          included auditing about 1,280 individual tax
practice and pinpointing and correcting problems.                 returns reporting sole proprietor and/or
                                                                  rental activities.

Adjust process based on pilot. This step is designed to           Pilot testing results were underway at the
incorporate and test needed changes to the new process            time of our review, and adjustment, if any,
based upon lessons learned in earlier pilot testing.              will be made once results are finalized.

Define roles and responsibilities. To ensure                      Examiners located in the IRS campuses and
accountability, it is vital to designate the specific personnel   their immediate supervisors will be
who will be responsible for making the process                    primarily responsible for implementing any
improvement.                                                      new process improvements.

Establish employee expectations. Developing and issuing           Employee performance plans and
new performance expectations needs to be considered and           expectations are not anticipated to change
developed if the new process causes traditional roles,            significantly.
responsibilities, and expectations to change for employees.

Monitor and evaluate the new process. An evaluation               A monitoring and evaluation plan had not
plan is needed for evaluating the success of the process          been completed at the time of our review
change and needs to include a combination of performance          that would determine how well the process
measures for weighing the costs of the new process against        is performing and if further improvements
expected benefits, determining whether the process is             may be needed.
achieving desired results, and assessing if further
improvements are needed. To enhance credibility and
avoid potential bias, the criteria about what would
constitute a success needs to be defined.

Establish a change management strategy. Change                    An approach for handling potential
management is a structured approach for how best to               transitional issues, if any, will be developed
address the transitional issues associated with moving to a       once pilot test results are finalized.
new process. These issues, among others, include
addressing resistance that may be encountered within a
work unit to a new way of conducting business.

Establish a transition team. Typically, a transition team is      The need for a transitional team will be
responsible for managing the implementation of a new              evaluated once pilot test results are
process. As such, the team should develop a plan that             finalized.
communicates the various aspects of the new process, its
goals, and how it will implemented.


                                                                                                          Page 19
                         The Initiative to Reduce Compliance Risks Associated
                           With Delinquent Income Tax Returns Filed After a
                         Substitute for Return Assessment Could Be Enhanced



      Description of GAO’s Recommended Steps                       Approach Used by the IRS
 Develop workforce training plans. In general, employee         Plans for additional training, if any, will be
 training plans need to be considered and developed if the      considered and developed once pilot test
 change is going to significantly alter traditional roles and   results are finalized.
 responsibilities. For example, employees may need
 training to learn new technical skills if they are going to
 successfully take on new responsibilities.
Source: The GAO’s 20-step approach and our analysis of SB/SE Division’s Initiative.




                                                                                                         Page 20
      The Initiative to Reduce Compliance Risks Associated
        With Delinquent Income Tax Returns Filed After a
      Substitute for Return Assessment Could Be Enhanced



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 21
The Initiative to Reduce Compliance Risks Associated
  With Delinquent Income Tax Returns Filed After a
Substitute for Return Assessment Could Be Enhanced




                                                   Page 22
